SUPREME COURT CASE NO. 20-

IN THE SUPREME COURT OF THE UNITED STATES

ARCHIE LEE WILLIAMS,
Petitioner,

vs.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari from
the United States Court of Appeals
for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF SERVICE

I, Brian D. Clark, counsel of record for Petitioner, and member of the Bar of
the this Court, hereby certify that, on this 2nd day of July 2020, I have caused to be
served the enclosed Motion for Leave to Proceed In Forma Pauperis, Petition for a
Writ of Certiorari, Appendices, and Certificate of Compliance with Page Limits on
counsel of record for Respondent,

Jay E. Town, United States Attorney

Michael B. Billingsley, Assistant United States Attorney

United States Attorneys Office

1801 Fourth Avenue North

Birmingham, AL 35203

Solicitor General of the United States

Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530-0001

In addition, on the same date, the original and additional copies of the
foregoing were filed by Federal Express overnight delivery, addressed as follows:

Supreme Court of United States, Clerk’s Office
1 First St. NE
Washington, DC 20543
I further certify that all parties require: e served have been served,
and under penalty of perjury that the foregoing is tru ah
Executed on July 2nd, 2020. aa ey /

A
/

      

\ Brian D. Clark~

“Brian D. Clark, P.C.
106 Lincoln St. SE
Huntsville, AL 35801
Tel: 256-705-0200
Fax: 256-519-2200
brian@briandclarkpc.com
Appointed Counsel for Petitioner
Archie Lee Williams
